<html>
<title> - IS BROOKLYN BEING COUNTED? PROBLEMS WITH THE 2010 CENSUS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
        IS BROOKLYN BEING COUNTED? PROBLEMS WITH THE 2010 CENSUS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2010

                               __________

                           Serial No. 111-101

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
63-037                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2010....................................     1
Statement of:
    Flateau, John, Deputy Secretary of the New York State Senate, 
      census coordinator for New York............................     4
    Groves, Dr. Robert M., Director, U.S. Census Bureau, 
      accompanied by Lester A. Farthing, Regional Director, U.S. 
      Census Bureau New York Regional Census Center..............    17
    Zinser, Todd J., inspector general, U.S. Department of 
      Commerce...................................................    26
Letters, statements, etc., submitted for the record by:
    Flateau, John, Deputy Secretary of the New York State Senate, 
      census coordinator for New York, prepared statement of.....     7
    Groves, Dr. Robert M., Director, U.S. Census Bureau, prepared 
      statement of...............................................    20
    Zinser, Todd J., inspector general, U.S. Department of 
      Commerce, prepared statement of............................    28


        IS BROOKLYN BEING COUNTED? PROBLEMS WITH THE 2010 CENSUS

                              ----------                              


                         MONDAY, JULY 19, 2010

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                      Brooklyn, NY.
    The committee met, pursuant to notice, at 10:06 a.m. at 
Brooklyn Borough Hall, 209 Joralemon Street, Brooklyn, NY, Hon. 
Edolphus Towns (chairman of the committee) presiding.
    Present: Representatives Towns, Clarke, Clay, and Rangel.
    Staff present: Carla Hultberg, chief clerk; Bill Jusino, 
Phyllis Love, and Ryshelle McCadney, professional staff 
members; Shrita Sterlin, deputy director of communications; and 
Ron Stroman, staff director.
    Chairman Towns. The committee will come to order.
    Good morning. Thank you for coming. Today we will examine 
an event that occurred June 12th and June 13, 2010, which 
resulted in whistleblower allegations against two former 
managers at the Brooklyn Northeast Census Office, who ordered 
census forms to be completed fraudulently using information 
from an online data source instead of personal interviews.
    We want to understand what happened, how much damage was 
done, and what is being done to insure the accuracy of the 
Brooklyn census count. I want each and every resident of 
Brooklyn to know how important it is for them to be counted in 
this census.
    This committee has made the 2010 census a top priority; and 
I don't have to tell you how troubled I am about this incident. 
Anything that compromises the integrity of the 2010 census is 
unacceptable. There is too much at stake here. We must do 
everything in our power to make sure the final count is 
accurate and complete.
    As a co-sponsor of the Whistleblower Protection Enhancement 
Act, I am gratified to know that the problems in the Brooklyn 
Northeast Local Census Office came to light because of a 
whistleblower complaint. These complaints initiated an 
investigation by the Census Bureau Headquarters and the New 
York Regional Center, which resulted in the swift termination 
of the two people who were responsible.
    We need to know what has happened since that occurred, 
because I'm concerned that a couple of bad apples may have 
undermined the public's faith in the census. An accurate census 
is essential to insure integrity and in redrawing congressional 
districts. In addition, billions of dollars in the Federal, 
State, and local funds are distributed based on the Census 
Bureau's report on our Nation's population. The census helps 
policymakers better understand where vital services are needed 
most. I represent a district that is comprised of a number of 
so-called hard to count communities; senior citizens, recent 
immigrants, undocumented workers and people who don't trust a 
stranger knocking on their door.
    I recognize that these communities present challenges to 
the Census Bureau; but these challenges must be met. With so 
many in our communities in need of help, we need to get this 
census count right.
    I look forward to hearing from our witnesses today. I hope 
they will tell us how they have responded to this incident that 
occurred on June 12th and June 13th, and to make sure we have 
an accurate and complete count of Brooklyn's residents. Once 
again, I want to let the Census Bureau know that this committee 
is eager to work with you to make that happen.
    At this time I would like to yield to the subcommittee 
chair, the gentleman from St. Louis, MO, Congressman Clay; the 
person who has the oversight responsibility at the subcommittee 
level.
    Congressman Clay.
    Mr. Clay. Thank you, Mr. Chairman. Let me first thank you 
and your staff for facilitating this hearing. And thank you for 
your hospitality, and I'm always happy to return to Kings 
County--no offense, Congressman Rangel--and this impressive, 
historical Brooklyn Borough Hall.
    Chairman Towns has provided significant help and support to 
me personally in my capacity as chairman of the Information 
Policy, Census, and National Archives Subcommittee.
    Further, the subcommittee has long recognized the 
significance of an accurate count in Brooklyn. A subcommittee 
field hearing was held here in February with a positive dialog 
on reducing the census undercount in group quarters.
    Today, however, we seek to glean information on the 
problems brought to light via the inspector general's hotline. 
The falsification of documents and fraudulent completion of 
census forms are serious issues and have far-reaching 
implications. I'm hopeful that Dr. Groves and Inspector General 
Zinser will provide the oversight committee, the evidence to 
insure that census 2010 enumeration is on the correct track; 
and that effective measures were taken to mitigate the damage 
done by a few.
    Kings County is one of the hardest counties to count in the 
United States. And it is crucial that the count here and, of 
course, all across the Nation is accurate and substantiated. So 
much is at stake; Federal funds, national prominence and 
legislative position.
    Mr. Chairman, I share your concerns and look forward to 
today's hearings. I yield back.
    Chairman Towns. Thank you to the gentleman from St. Louis 
for his comments at this time.
    I would like to yield to Congressman Rangel from Manhattan. 
Of course, I want you to know that the fact that he is in 
Brooklyn from Manhattan, it's a very serious hearing. 
[Laughter.]
    Congressman Rangel.
    Mr. Rangel. Thank you, Mr. Chairman, and thank you for 
inviting me to share with you this hearing. I want to thank 
Congressman Clay. He's done a terrific job in terms of the 2010 
census, and all of his staff. He was able to put together this 
hearing so that we can have a search for the truth.
    I want to thank Mr. Farthing especially for the amount of 
time he spent in my congressional district and especially in 
the borough. My congressional district like yours, has a lot of 
obstacles that census takers had to overcome. And all the work 
that's been invested to make certain the process maintains its 
integrity is so important, that if we find something going 
wrong, we do exactly what you are doing; have hearings, find 
out what went wrong, and make certain it doesn't happen again.
    And of course, it's good to see my friend Dr. Groves, who's 
worked with us in Harlem and the city all together. Of course, 
we can't say Brooklyn without talking about the borough 
president. And so it's very exciting to be here, and thank you 
once again for the invitation.
    Chairman Towns. Thank you, Congressman Rangel.
    At this time, we'd like to hear from the borough president 
of Brooklyn; a person who's provided leadership in this borough 
for the past 9 years, borough president, Marty Markowitz.
    Mr. Markowitz. Thank you, Mr. Chairman. Thank you very 
much.
    First of all, Congressman Clay, welcome to the 4th largest 
city in America, which is Brooklyn, U.S.A. After the census, 
I'm confident we'll still be the fourth, if not the third.
    Certainly, Congressman Rangel, it's always a good day when 
we see you here in Brooklyn. Which, by the way, Congressman 
Rangel comes here quite regularly. I'll tell you something. In 
fact, if he wasn't a Congressman in Manhattan, in Harlem, he 
might relocate to Brooklyn, if he had his choice.
    So thank you for your outstanding leadership nationally, as 
well as here in New York; and of course to our chair, Ed Towns. 
I always call myself Marty ``Towns'' Markowitz, and I say so 
with a lot of pride. He started here, right in this building, 
as deputy borough president.
    Today he went right past me, and that's for sure. We're 
very proud of you, Congressman. Thank you for holding this 
important hearing here in city hall of the city of Brooklyn. 
Thank you very, very much.
    Let me, if I may, give a special welcome to Todd Zinser, 
Inspector General from the U.S. Department of Commerce, and 
from the Census Bureau, the Director, Dr. Robert Groves; and of 
course, thank you for allowing Lester, who we know as Tony 
Farthing, as being such an outstanding leader as your New York 
regional director.
    There's no doubt that, over all, the Census Bureau did an 
incredible job with census 2010. The borough initiated broader 
outreach efforts throughout Brooklyn's many communities.
    This is a large county, as you know. Trying to count every 
person living within its borders is a mammoth undertaking. I'm 
confident that the Bureau understands the gravity of what 
occurred at one of your Brooklyn locations.
    I applaud them for listening to the whistleblowers who knew 
what their superiors were asking them to do. What these 
important employees did is a real act of courage. Even in this 
tough job market, they believed enough in the census to risk 
their jobs and do what is right.
    Thanks to the Census Bureau, we know we are one of the 
fastest growing parts of New York City. Historically, Brooklyn 
has always been undercounted in the census. That's why for much 
of this year our office here at Borough Hall initiated the 
Complete Count Committee, reaching out to communities borough-
wide, and urging them to spread the word about the importance 
of the census.
    Brooklyn deserves an accurate count, and we can't be 
satisfied with anything less. And we have to remember, having 
an impact on the count isn't just detrimental to Brooklyn. If 
Brooklyn were its own city--which of course I wish we could 
correct the great mistake of 1898--we still would be the 4th 
largest city in the Nation, putting us ahead of Houston, TX.
    So getting the census right in Brooklyn isn't just a local 
issue, Mr. Chairman, it's a national one. Today it's about 
making sure what happened at the Brooklyn bureau never happens 
again; because when it comes to the census, we have just one 
request. We want to be counted accurately.
    Thank you very, very much.
    Chairman Towns. Thank you, Marty Markowitz. We appreciate 
your involvement and your leadership in this record, as well.
    Now, we would like to have the deputy secretary of the New 
York State Senate 2010 census coordinator for New York, a 
person who has lived this for a long time. He was here when the 
census office was burned down. We always have seen a lot of 
problems in this area. Of course, Mr. John Flateau has been 
there down through the years. So at this time, we would like to 
ask him to give his statement.

  STATEMENT OF JOHN FLATEAU, DEPUTY SECRETARY OF THE NEW YORK 
         STATE SENATE, CENSUS COORDINATOR FOR NEW YORK

    Mr. Flateau. Good morning and welcome to Brooklyn, our 
historical gateway city, premier urban community in America. 
I'm a long-time resident of Central Brooklyn. I'm a Medger 
Evers College CUNY professor; and I currently work for the 
Senate, coordinating the 2010 census efforts on behalf of 
Conference Leader Senator John Samson, and Census Chair, 
Senator Martin Dilan.
    I also had the honor of serving as chair of the U.S. Census 
Advisory Committee on the African-American Population, for 
census 2000.
    Thank you, Congressman Towns, our distinguished people's 
Congressman, and Members of Congress, for conducting this 
important hearing on the 2010 census.
    One might ask the question, Why is Brooklyn important to 
the 2010 census? Here are a few reasons why. If Brooklyn were a 
city, it would be the 4th largest city in America. Second, 
Brooklyn, or Kings County, is the largest county in the State 
of New York. It is the largest of its 62 counties. And one-
eighth of all residents of New York State reside in Brooklyn, 
where we now sit. There are 17 counties throughout the State 
with less than 50,000 people. We have neighborhoods larger than 
that in Brooklyn. Bedford-Stuyvesant, my home community, has 
twice that population. And it is one of America's hardest to 
count neighborhoods, a locale of consistent minority population 
undercounts in previous censuses.
    Third, approximately 15 percent of the State's entire 
congressional, State Senate and Assembly delegations come from 
just one county and borough; you guessed it, Brooklyn U.S.A. 
Thus, Brooklyn's voice in Washington, Albany, and city hall 
will be determined by legislative redistricting based on the 
2010 census. Senator Dilan is the co-chair, and I'm a member of 
the legislative Task Force on Demographic Research and 
Reapportionment. They provided the major mapping and data 
support for our 2010 census efforts, along with several other 
census offices.
    Another very important reason why we should pay attention 
to Brooklyn: Brooklyn is just one of three counties in New York 
State which is covered by Section 5 of the U.S. Voting Rights 
Act, which requires preclearance from the Justice Department or 
D.C. Federal courts before making any changes in election 
policy or practice.
    As the Congressman mentioned, Brooklyn's fair share of our 
national $445 billion in Federal programs and services will be 
determined by Brooklyn's 2010 census data. Civil rights and 
anti-discrimination enforcement in employment, housing, 
education, as well as voting rights enforcement for Brooklyn's 
racial minorities, will be based on statistical analyses using 
2010 census data.
    Finally, Brooklyn and its 2.6 million people are one of the 
most diverse counties in America, in terms of immigration, 
race, ethnicity, religion, socioeconomic statistics, etc. There 
are nearly 1 million diverse housing units throughout Brooklyn; 
and Brooklyn is an epicenter for mortgage foreclosure crises.
    These are some of the major reasons why it is critical to 
achieve a 100 percent count in the 2010 census. Brooklyn, with 
its diversity and demographic change, is America's ultimate 
laboratory for getting the census count right.
    The State Senate played a major role in helping to bring 
that about, with our outreach efforts, mailings, targeted robo 
calls, media advertising to hard to count areas, and low mail 
response areas. The results are that the mail participation 
rates in New York City and in Brooklyn are on the rise. 
Congressman Towns' district, Congresswoman Clarke's district in 
Brooklyn, and our Senate districts in Brooklyn all had 
increases in their mail participation rates from 2000 to 2010. 
You have before you a brief historical table of all of the 
censuses that have taken place in Brooklyn since 1790.
    Currently, the Bureau estimates that there are 2.6 million 
people in Brooklyn: Over 1 million Whites, 1 million Blacks, 
almost 400,000 Hispanics, and over a quarter of a million 
Asians reside in Brooklyn right now. Brooklyn's diverse 
communities must all be counted.
    Thank you, Congressman Towns and Members of Congress, for 
this honor to bring remarks, which hopefully frame a Brooklyn 
context for this important hearing on the 2010 census. Your 
leadership on this issue is vital to defining America's people 
and future. Much is at stake. Please do all in your power to 
insure that all of Brooklyn, New York State, and indeed, all of 
America, is counted in the 2010 census.
    Thank you.
    [The prepared statement of Mr. Flateau follows:]
    [GRAPHIC] [TIFF OMITTED] 63037.001
    
    [GRAPHIC] [TIFF OMITTED] 63037.002
    
    [GRAPHIC] [TIFF OMITTED] 63037.003
    
    [GRAPHIC] [TIFF OMITTED] 63037.004
    
    [GRAPHIC] [TIFF OMITTED] 63037.005
    
    [GRAPHIC] [TIFF OMITTED] 63037.006
    
    [GRAPHIC] [TIFF OMITTED] 63037.007
    
    [GRAPHIC] [TIFF OMITTED] 63037.008
    
    [GRAPHIC] [TIFF OMITTED] 63037.009
    
    [GRAPHIC] [TIFF OMITTED] 63037.010
    
    Chairman Towns. I'd like to thank you, Dr. Flateau, for 
your statement. Of course we look forward to working with you 
as we continue to get it right. And we appreciate all you've 
done in the past, not only this census, but in the years past.
    Thank you so much for your statement.
    Mr. Flateau. Thank you, Congressman.
    Chairman Towns. I request unanimous consent that visiting 
Members who do not serve on the committee be allowed to attend 
the hearing and question witnesses. Without objection, so 
ordered.
    Let me ask the next panel to come forward, please? Before 
you take your seats, I'll swear you in.
    Raise your right hands.
    [Witnesses sworn.]
    Chairman Towns. Let the record reflect that they all 
answered in the affirmative.
    You may be seated.
    Dr. Groves, it's good to see you. And with so many in our 
communities in need of help, we need to get this census count 
right. And we have had some problems in this same area before. 
Ten years ago we had problems, 20 years ago we had problems. 
And of course here we are again, with problems.
    So we want to make certain that we do everything that we 
can this time around to get it right. We want to work with you 
to make certain that occurs. So what we would like to hear from 
you now is what happened on June 12th, June 13th and what 
you've done since that incident on June 12th and June 13th. And 
of course, as you know, we have had conversations in the past, 
and I have tried to convey to you how serious this issue is for 
us, because there are so many things riding on this.
    When you look at reapportionment, when you look at housing 
dollars, when you look at food stamps; when you look at all of 
the things that you get as a result of the census count, it is 
important that we get it right. Because here again, it is about 
fairness.
    On that note, let me describe how we work; 5 minutes, of 
course, for your statement, and the lights will go--first it's 
on green and then it will go on yellow for caution, and then it 
will go on red. I want you to know red, everywhere in the 
United States of America, means stop.
    Dr. Groves.

   STATEMENT OF DR. ROBERT M. GROVES, DIRECTOR, U.S. CENSUS 
 BUREAU, ACCOMPANIED BY LESTER A. FARTHING, REGIONAL DIRECTOR, 
          U.S. CENSUS BUREAU NY REGIONAL CENSUS CENTER

    Mr. Groves. Thank you, Mr. Chairman. I'm happy to be here. 
Subcommittee Chairman Clay, Congressman Rangel, Congresswoman 
Clarke, I appreciate the opportunity to provide this testimony 
and to clarify and describe the problems we discovered in the 
local census office in Brooklyn just about a month ago.
    In recent weeks, our colleagues in the Brooklyn Northeast 
local census office contacted Census Bureau senior staff, as 
well as the Office of Inspector General, alleging that 
management staff members in that office were using an Internet 
data base called FastData, a software package installed on 
office computers to substitute information about households 
they were supposed to be interviewing.
    A second set of allegations that I'll speak to later 
indicated staff in two Brooklyn offices also falsified 
population counts for households, for which they were unable to 
determine the population count at point of interview. We 
investigated this. We confirmed that in both instances, staff 
members acted in clear violation of our procedures and we are 
now reworking the affected cases to insure that data are 
accurate.
    Mr. Chairman, this is deeply troubling. I find it abhorrent 
to the principles, all principles underlying the work of the 
Census Bureau. It undermines the outstanding work of hundreds 
of thousands of our enumerators around the country.
    We cannot and we do not tolerate such behavior. When we 
find such behavior we terminate the personnel and redo the 
affected work. The ethical violations that we have in this case 
are at the managerial level, and those are particularly 
troubling to me. Nonetheless, I think it's important to stress 
that the events of this nature unfortunately have occurred in 
prior censuses.
    During training, therefore, we instruct our staff to 
contact both senior Census Bureau staff and the Office of the 
Inspector General if they see anything, if they suspect 
procedures aren't being followed.
    We train them to do this, we've established mechanisms that 
we employ to correct those problems; and indeed, that's what 
occurred in this case.
    The quality assurance mechanism we employ routinely is a 
reinterviewing, following up on some of the nonresponsive 
followup interviews. We systematically reinterview a random 4 
percent of each person's, each census taker's cases, and sample 
enumerator's initial completed interviews at a much higher 
rate.
    We then examine data beyond that, looking for what we call 
``outliers,'' unusual patterns of responses that may indicate 
falsification or fabrication. In total, about 5 percent of the 
work nationally and here locally in Brooklyn are completely 
redone through this reinterview process, and we compare the 
reinterviews with the initial interview data, looking for cases 
that appear to not to have followed our training guidelines.
    In this case, an office clerk in field operations contacted 
our regional office staff leaving a phone message, alerting 
them to what they thought was unusual activity, this activity 
taking place on Sunday, June 13th. The charge was inappropriate 
use of this Internet data base to complete enumerator 
questionnaires. This same clerk and an office operations 
supervisor reported this activity to the Inspector General's 
office hotline on Monday, June 14th. The regional census office 
began their internal investigation on that following Monday, 
June 14th, based on the phone message left at the regional 
office the day before.
    The office was instructed to cease using FastData, this 
Internet data base, immediately, for nonresponse followup data 
collection. The Inspector General complaint was transmitted to 
the chief of the field division in D.C. at the Census Bureau on 
Monday evening, June 14th.
    Then headquarters officials conducted an independent 
investigation of the allegations on Thursday, June 17th, that 
included interviews in the office, with office and some field 
staff personnel. We also reviewed various reports on re-
interview and other quality control procedures, and then we 
looked at FastData usage reports.
    One of the important things to note is this Internet data 
base, unbeknownst to the user, generates a log file. So 
nationally we know every user's query into this data base, the 
date, and the user name. This is a great piece of evidence to 
investigate this kind of problem. Headquarters officials 
completed the investigation on June 18th and provided 
preliminary results the same day. The local office manager and 
the assistant manager for field operations in that office were 
terminated later that same day. The primary finding here was 
that the inappropriate use of this FastData Internet data base 
did occur at the direction of the office manager and the 
assistant manager. The information was transcribed onto 
incomplete enumerator questionnaires between June 12th and June 
13th. And then a secondary finding is that the manager and the 
assistant manager attempted to cover up this activity. In these 
cases, our job is to determine what cases are affected by the 
bad behavior and then to do essentially a redo process, going 
over the work, make sure we get good data.
    A group from the central office, from headquarters, 
traveled to New York on Monday the 21st. As a result of their 
findings, that investigation, a decision was made to proceed 
with re-enumerating of all the cases completed on or after June 
12th that were not yet checked in at all; and to direct the 
office management team to have all rework conducted by 
enumerators or crew leaders who did not do the original work in 
question. We wanted to make sure this was an independent 
effort.
    To insure that the questionable activity didn't spill over 
to other census offices, we did a complete independent 
investigation of other offices in the area.
    We also picked up a second allegation that was e-mailed to 
both me and the Office of the Inspector General, about putting 
into place population counts that were not clearly observable. 
We're in the middle of the investigation of that. This has 
generated proxy data that we believe is not accurate.
    We are in the midst of a national review of that, looking 
at the data as returned from offices throughout the country, to 
make sure that we repair this when found, and that we find it 
whenever it occurs.
    In conclusion, I want to say how troubled I am that this 
occurred. These are not the standards we seek to attain at the 
Census Bureau. The vast majority of our employees are following 
the procedures as laid out by us and do excellent work. 
Thankfully, we have procedures in place to address the problems 
when they occur. I'm also thankful for the efforts of the 
Office of the Inspector General in helping us identify and 
respond to the issues.
    I'm joined today by New York Regional Director Tony 
Farthing, and we're happy to take your questions.
    [The prepared statement of Mr. Groves follows:]
    [GRAPHIC] [TIFF OMITTED] 63037.011
    
    [GRAPHIC] [TIFF OMITTED] 63037.012
    
    [GRAPHIC] [TIFF OMITTED] 63037.013
    
    [GRAPHIC] [TIFF OMITTED] 63037.014
    
    [GRAPHIC] [TIFF OMITTED] 63037.015
    
    [GRAPHIC] [TIFF OMITTED] 63037.016
    
    Chairman Towns. Thank you very much, Dr. Groves.
    At this time, we'll hear from you, Mr. Zinser.

STATEMENT OF TODD J. ZINSER, INSPECTOR GENERAL, U.S. DEPARTMENT 
                          OF COMMERCE

    Mr. Zinser. Chairman Towns, Representative Clay, 
Representative Rangel and Representative Clarke, I appreciate 
the opportunity be here today to testify on whistleblower 
allegations we received concerning census operations here in 
Brooklyn, and the steps being taken to insure the accuracy of 
the 2010 decennial counts.
    We have submitted a written statement that briefly 
summarizes the results of recent investigations and the serious 
allegations that managers in the Brooklyn Northeast local 
census office directed employees to falsify census 
questionnaires during non-response followup, using information 
from a proprietary online data base.
    My written statement also addresses the corrective actions 
taken by Census to insure the fraudulent questionnaires are 
redone and completed correctly.
    On June 14th, upon receiving two whistleblower complaints 
alleging irregularities with the nonresponse followup operation 
in the Brooklyn Northeast local census office, my staff took 
the following actions: That same day, we promptly alerted the 
Census Bureau headquarters of the alleged irregularities, 
emphasizing that the allegations were extremely serious and 
that they warranted investigation. We alerted the Census Bureau 
right away, based on protocols established between my office 
and the Census Bureau, aimed at identifying and reporting 
problems with the operations as soon as possible, to enable the 
Census Bureau to initiate corrective action. That was done in 
this case.
    Some questions have been raised by the committee about this 
process, specifically whether in sharing this complaint 
information with the Census Bureau, we also shared the identity 
of the whistleblower with them.
    I want to give the committee complete assurance that we did 
not share the whistleblowers' identities with the Census 
Bureau. We protected the identity of the whistleblowers by 
redacting any identifying information from their complaints 
before the allegations were forwarded by my office. Second, my 
office has remained actively involved in this matter. We 
monitor census actions to assess the complaints. And on June 
28th, based on the facts coming to light, we converted these 
complaints from the hotline case to a criminal investigation, 
and we've assigned Special Agents to the matter.
    Since that time, my office has taken the following actions: 
OIG Special Agents have secured evidence of suspected 
enumerator questionnaires. The OIG Special Agents have 
interviewed census workers who were directed to carry out the 
improper orders of local census office managers.
    The OIG special agents recently obtained a sworn confession 
from a former manager, and are working to secure the 
cooperation of others involved. We are continuing to coordinate 
our investigative efforts with the U.S. Attorney's Office of 
the Eastern District of New York. We are also overseeing 
remediation efforts with respect to the fraudulent 
questionnaires. As indicated in my written statement, there 
have been problems with the remediation effort the census must 
address.
    To correct the fraudulent questionnaires at the Brooklyn 
Northeast office, the Census Bureau initiated a re-enumeration 
of those addresses. There are established guidelines for 
conducting re-enumerations.
    However, during the course of this re-enumeration, we 
received additional hotline calls that there were 
irregularities in the way the re-enumeration activities were 
being carried out. These irregularities appear to have been the 
results of an interpretation of the re-enumeration guidelines.
    As a result of this mis-interpretation, census workers may 
have entered incorrect information on the questionnaires, based 
on assumptions about the number of people who resided at the 
address; for example, based on the number of names on the 
mailbox.
    When it was reported to us that this was happening, we 
asked the Census Bureau to address the allegations and the 
Census Bureau's assessment to what extent the re-enumeration 
must be done over. We will continue to closely oversee the 
remediation efforts of the Census Bureau with respect to the 
Brooklyn count.
    Finally, Mr. Chairman, I would like to give credit to the 
Census Bureau and how they responded to the whistleblower 
allegations we received concerning the Brooklyn Northeast 
office. They took the issue seriously, they took prompt, 
corrective actions.
    We've established what I view as an effective working 
relationship for addressing those problems that arise during 
the decennial, whether those problems have come to light from 
our hotline or through the observations our OIG staff has made 
through their hundreds of field visits across the country.
    That concludes my statement, Mr. Chairman. I'm happy to 
respond to any questions you may have.
    [The prepared statement of Mr. Zinser follows:]
    [GRAPHIC] [TIFF OMITTED] 63037.017
    
    [GRAPHIC] [TIFF OMITTED] 63037.018
    
    [GRAPHIC] [TIFF OMITTED] 63037.019
    
    [GRAPHIC] [TIFF OMITTED] 63037.020
    
    [GRAPHIC] [TIFF OMITTED] 63037.021
    
    [GRAPHIC] [TIFF OMITTED] 63037.022
    
    [GRAPHIC] [TIFF OMITTED] 63037.023
    
    [GRAPHIC] [TIFF OMITTED] 63037.024
    
    Chairman Towns. Thank you very much, Mr. Zinser, for your 
comments.
    Let me begin with you, Doctor. As I indicated, this has 
been an area with a lot of problems in the past. I'm sure you 
are aware of all the problems that happened back then, where 
the census office was burned down, and other problems.
    This has been an area that in every census, we have 
encountered difficulties. And of course, a time to bring people 
from all over the country to finish the count.
    My question to you is, do we have enough time to do an 
accurate count?
    Mr. Groves. Thank you, Mr. Chairman. We in this census, in 
terms of the operations nationally, and I can say locally here, 
have finished all of the various operations, about 11 in 
number, on schedule and under budget.
    We are now at a period where we are doing a lot of quality 
assurance work, and we still have people on the streets 
knocking on doors for that purpose. I can assure you that all 
of the operations we need to do the followup on any rework that 
we will discover, we have discovered or will discover, we will 
finish those up at a professional level, taking the time to do 
it right. We have the time.
    Chairman Towns. I'm referring, actually, to the Brooklyn 
one.
    Mr. Groves. Yes, we have the time. The reworking on the 
first problem that we encountered, the use of that Internet 
data, is already in progress. We're really getting toward the 
end of that work. That's about 4,200 households, about 2 
percent of the population covered by this office; and we are 
really close to finishing that.
    Chairman Towns. Mr. Zinser, how did you become informed 
that there was a problem.
    Mr. Zinser. Sir, we maintain a hotline that is manned by 
OIG staff. And calls came in to the hotline, they spoke to our 
agents that this was happening. We have an established 
procedure for recording complaints that come in. And for the 
decennial census, once we've recorded the complaints and our 
analysts have reviewed what the callers were complaining about 
and identified it as a serious issue, through protocols we have 
established with the Census Bureau, we forwarded that 
information to them and asked them to investigate those 
allegations.
    Chairman Towns. Let me ask this: When you know that an area 
has had problems in the past, do you look to see if you can 
find an experienced person to go in there? Better than that, 
how did you get these people that created this problem? I'm 
talking to you, Dr. Groves, and to Mr. Farthing.
    Mr. Groves. The personnel in question went through 
precisely the same procedures that are done nationally. We 
advertise for managerial positions in a lot of different ways, 
both in newspapers and community meetings, fliers and job 
fairs, and also on USA Jobs.
    If I'm an applicant for a managerial position, I would 
complete one of our application forms, I would take a test. I 
have to perform on that test. I go through other evaluations 
and then we get a pool of people qualified under those rules. 
Then we have staff interviewed by permanent Census Bureau staff 
and select a candidate based on that. That's how these two 
individuals came to us. This hiring progress was followed as we 
do throughout other offices.
    Chairman Towns. There's no system in place that would give 
you an experienced person to go into an area that's hard to 
count, had the problems we've had the past? There's no system 
in place?
    Mr. Groves. That's part of the interview process. Maybe 
Tony could mention in these cases how this was handled in these 
offices that we are talking about.
    Mr. Farthing. One of the things that we do is, we look for 
individuals that meet the qualifications, No. 1. They can come 
in, they have knowledge of the area. We look for individuals 
that actually know the area enough to know what they are 
getting into in terms of conducting a census.
    We also look for individuals which we're very fortunate to 
have at times worked for us in the past, who understand the 
operations and we feel they can come in, and actually perform 
at a level better than someone new to the process. In the case 
for this particular office, we had an individual who actually 
worked for us before.
    Chairman Towns. You are aware that this area had a lot of 
problems in the past. Are you aware of that.
    Mr. Farthing. I live in the area, so I know; and I've 
worked there for three decades. I know.
    Chairman Towns. At this time I yield to the subcommittee 
chair, the gentleman from Missouri, Mr. Clay.
    Mr. Clay. I'll start with Dr. Groves. You mentioned that 
population counts that are not verifiable, that are popping up 
around the country. And apparently you have a system in place 
that alarms you or alerts you that some data is tainted or of 
some systemic glitch. And apparently, that system worked in 
this instance also, where it came to you that, while I guess 
the whistleblower system worked. Once you got into the data you 
also figured out that it was contaminated.
    Share with us how that worked.
    Mr. Groves. The first alert on this did come from office 
staff members, and I share the borough president's note that 
these are courageous people that came forward, and we thank 
them for what they did. They saw irregularities going on in the 
office. That kicked off our internal investigation.
    The irregularities they picked up were on cases that had 
not yet been forwarded to the processing centers; we have three 
around the country. It is our belief that if the whistleblower 
had not come forward, we would have caught some of those cases 
in the reinterviewing process. But I can't prove that, since 
that isn't how this unfolded.
    We have design procedures built in for quality assurance 
that happen every time. Essentially, 100 percent of our 
enumerators have had some of their work redone and checked, a 
double checking. This gives us some comfort nationally.
    By the way, if you are asking what portion of those are we 
finding involved in some falsifications, it is 0.14 percent. It 
is a very small percentage of the enumerators that we're 
finding not following our training guidelines, and that's some 
comfort nationally.
    Nonetheless, this happened. We found out about it through 
the courage of an office staff member who saw bad things 
happening and reported it.
    Mr. Clay. What is the status of the two employees, the 
supervisor and assistant supervisor? Have they broken any laws?
    Mr. Zinser. Sir, the Census Bureau terminated those 
employees on June 22nd, I believe. And they were able to do 
that promptly because the census workers are temporary 
employees, and that gives the Census Bureau the flexibility to 
make those determinations without the difficulty associated 
with personnel practices and processes; so they were 
immediately terminated.
    In terms of whether or not any laws were violated, we 
certainly know that census procedures were violated. I think 
the question of whether laws were violated should be left up to 
the U.S. Attorney's Office. I have satisfied my legal 
requirement to refer matters to the U.S. Attorney's Office. I 
have reasonable grounds to believe that laws have been 
violated. So since I have reasonable grounds to believe they 
have been violated, I leave it up to the U.S. Attorney's Office 
to make that final call.
    Mr. Clay. Dr. Groves, anything to add to that?
    Mr. Groves. We at the Census Bureau are in full support of 
the Inspector General's actions in this matter.
    Mr. Clay. In comparison to the 2000 census for here in 
Brooklyn, how does it compare to this year, as far as 
completion rates, mail-in rates?
    Mr. Groves. I think Mr. Farthing is the best to answer.
    Mr. Farthing. In the Borough of Brooklyn alone, we've been, 
at least this census, we've been very happy to see that the 
actual completion rate--we're looking at two things. One is the 
participation rate; and in the Borough of Brooklyn it did 
increase. And if you look at some of the statistics that we 
have on our Web site, you can see we track the areas that 
showed tremendous increase from 2000. We are very happy about 
that.
    What that means, of course, we have to knock on fewer 
doors, and have better data because people willingly respond to 
the census.
    Mr. Clay. If I looked on the Web site today, what 
percentage would be counted in Brooklyn?
    Mr. Farthing. If you looked at the Web site today for 
Brooklyn, the participation rate in 2005 was 52 percent; and 
for 2010, it went up to 55 percent. The significance of that is 
that we've been really--in the past 10 years--in an environment 
where it's been very difficult to do survey type work and get 
the public to respond.
    And so for the past 10 years, looking at the Borough of 
Brooklyn, there have been many changes. I'm preaching to the 
choir, to our representatives from Brooklyn. But we have a lot 
of immigrants in Brooklyn, a lot of change, a lot of new 
housing; and a lot of folks, of course, who are fearful about 
their status, of the environment. To actually have people 
respond willingly would really indicate a lower rate that we're 
able to increase.
    Mr. Clay. Thank you.
    Chairman Towns. The time has expired.
    And now the chairman of the New York delegation, Charles B. 
Rangel.
    Mr. Rangel. Thank you, Mr. Chairman.
    Exactly what law is it, Mr. Zinser, that you referred this 
case to the U.S. Attorney's Office, that you believe was 
violated?
    Mr. Zinser. Sir, there are actually provisions in Title 13, 
a statute governing the Census Bureau. There are provisions in 
Title 13 that make it a felony to falsify census records.
    Mr. Rangel. Exactly how was this done? What was the actual 
activity that had been violated under the law.
    Mr. Zinser. The Census Bureau procedures for recording 
census information includes actually going out and interviewing 
respondents. And if they can't get responses, then they have 
procedures for what's called ``entering proxy information.'' 
Those procedures do not include the actions that were taken by 
the local census office manager and the assistant manager for 
field operations.
    What we found, what the Census Bureau found, is that those 
managers, instead of actually getting information from the 
residents or using proxy information according to their 
procedures, directed their employees to take data that was 
contained in a proprietary online data base and enter that on 
the census forms instead of following procedures.
    In my view, that provides me a reasonable grounds to 
believe that provision of Title 13 was violated.
    Mr. Rangel. How many instances do you recall we've had in 
the city of that nature, Mr. Farthing? In other words, just 
putting in any information instead of getting the accurate 
information?
    Mr. Farthing. In this case, using a data base. Again, using 
a data base that was not provided in our provision of 
procedures to actually get the count. We wanted them to go out 
and knock on the door and get information.
    Mr. Rangel. So they didn't go out to get information 
themselves. How many cases have been brought to your attention 
for the city of New York? I want to get a feel for how 
widespread this is.
    Mr. Farthing. In my three decades of working here, I've 
never had managers take that step, to order employees to 
actually do what they ordered them to do. For me, this is the 
first time in my working here that I've seen that.
    Mr. Rangel. This is the first time you've heard of the 
director or the manager actually using arbitrary information 
instead of going out and getting it.
    Mr. Farthing. Yes; first time.
    Mr. Rangel. We haven't checked petitions yet, in terms of 
signatures people have gotten. [Laughter.]
    You have done a better job, if this is the first time you 
have heard of that. Let me say this. You've done an outstanding 
job. This is a Constitutional requirement, and as the chairman 
pointed out, it is so necessary that we preserve the integrity 
of this system, so that others will avoid the temptation of 
avoiding doing the right thing. I think you've done a great 
job.
    I want to thank you on behalf of all of the community 
leaders and elected officials, party officials, who you 
partnered with, in order to get the accurate information in my 
borough.
    Thank you.
    And thank you, Mr. Chairman.
    Chairman Towns. Thank you very much.
    Let me recognize the Congresswoman from the Borough of 
Brooklyn, who's part of the district affected by this, 
Congresswoman Yvette Clarke.
    Ms. Clarke. Thank you, Chairman Towns, Subcommittee 
Chairman Clay, for inviting me to sit in on this hearing 
regarding this very pressing and important issue, which is 
affecting my district, the Brooklyn community and the greater 
New York area.
    I'd like to acknowledge my colleague Congressman Rangel, 
and all the special guests joining us here today.
    As the representative of the 11th Congressional District, I 
have been diligently rallying with my constituents and my 
colleagues at the State and local levels, so we can get fuller 
participation in the census process. That's why I'm very 
concerned about the recent incidents of fraud that have been 
discussed here this morning.
    Like many of my colleagues in the New York congressional 
delegation, I represent a diverse constituency. According to 
the census of 2005, and 2007, the American community surveyed, 
the year to date estimates, the total population of my district 
is roughly 700,000 people.
    Approximately 39 percent of this population are foreign 
born immigrants from all over the world. Approximately 47 
percent of the immigrant population settled in the community 
between 1980 and 2008, and has yet to obtain natural 
citizenship. They are legal permanent residents. Some have 
legal visa designation or are simply undocumented.
    This extremely vulnerable population is already concerned 
with sharing private information with government entities, for 
fear of compromising their immigration status.
    Therefore, when incidents of fraud arise regarding census 
information, it is deeply troubling to both myself and my 
constituents, because of the potential impact it has on fragile 
participation rates altogether.
    As a result, an accurate count of the residents in our 
district, the integrity of the process and the direly needed 
resources to our districts become further compromised.
    Moreover, since the incidents of fraud were exposed by an 
honest employee, I'm concerned about the unknown rate of fraud 
that is yet to be exposed.
    It is my hope that this hearing, and it is my 
understanding, that we are gaining insight in ways to mitigate 
the occurrence of fraud for future censuses. The people of my 
district and Brooklyn heavily rely on it.
    So my first question is, one thing that I stressed in my 
community is the cost associated with not filling out a census 
form, or when filled out indirectly or fraudulently.
    Inspector General Zinser, do you have any knowledge of the 
cost estimation associated with the re-enumeration process and 
that of the approximate 4,221 cases that need to be reworked? 
And now that there are issues with the re-enumeration, what are 
the compounds costs?
    Mr. Zinser. Thank you, Representative Clarke.
    We have a rough estimate of how much it would cost to do a 
re-enumeration; $16 a case, 4,221 cases identified, so roughly 
about $50,000 that the fraud is actually going to cost the 
taxpayer.
    On the re-enumeration, on the problems with respect re-
enumeration, I would probably let Dr. Groves discuss that; 
because I don't think the Census Bureau settled on exactly how 
it is going to address that issue.
    Mr. Groves. I think it would be good first to describe how 
we identify what cases needed to be redone; because we tried to 
do--actually, what you said, Congresswoman, is exactly what we 
said in our meeting. How do we know how widespread this is? How 
are we going to find out what actually happened? And then, when 
we find the cases that are damaged, how are we going to rework 
them?
    And we did this--the one benefit of modern technology is 
that we have large computer files that processed data already, 
and we're using those to try to find other cases. The fact that 
we had computer logs that listed every inquiry, every query to 
this data base, allowed us to zoom in on the cases queried. And 
we are redoing every one of those.
    And then we're redoing others around there that are 
suspicious. So we are actually redoing more work than we think 
was actually affected, but we ought to make double sure that we 
got it right; and that sums up to the 4,200 number of cases. 
And we used an independent set of interviewers. I think that's 
very important; people that were not involved with the original 
work at all, and sent them out.
    Ms. Clarke. What do you estimate the cost to be?
    Mr. Groves. My estimates are a little higher than my 
colleagues. So we don't know exactly, first of all. We've been 
using the figures of roughly doing an interview cost, about $57 
per household. We have about 4,000 cases; and I'm getting 
something closer to a quarter million dollars for this repair 
effort.
    Ms. Clarke. Thank you, Mr. Chairman. I yield back.
    Chairman Towns. Thank you very much, Congresswoman Clarke. 
First of all, if not for the whistleblowers, would your policy 
control pick up this?
    Mr. Groves. To be absolutely honest, we won't know; because 
we caught it early. My professional judgment is that we would 
have seen irregularities through our normal quality control 
procedures. It would have taken a couple of weeks, and then we 
would have caught it.
    Chairman Towns. I listened very carefully this morning. I 
notice, in terms of the question raised by Chairman Clay, about 
the participation rate. And you indicated that it increased 
from 52 to 55. I'm trying to be impressed, but I'm having 
difficulty, because that still leaves 45 percent of our 
residents that are not being counted. Help me. I'm trying to 
find a positive thing here.
    Mr. Groves. It is very important to understand what that 
number means.
    Chairman Towns. Please help me.
    Mr. Groves. We mailed out to large numbers of households 
the paper mail questionnaire. Our best estimate at this point 
in the borough, is that 55 percent of the occupied units 
returned that form. What all that means is that we are going to 
knock on 45 percent of the doors. And we followed up on every 
one of those addresses that didn't fill out the form and mail 
it back.
    To be good stewards of the taxpayer's money, we thought 
that 100 percent would have returned the form. But we don't 
stop at the mail portion; that's just the beginning of the 
process we are still finishing up here in Brooklyn, of knocking 
on every door that did not return it.
    Chairman Towns. Let me turn to you, Mr. Zinser. Have you 
seen any complaints on whistleblowers, in terms of 
repercussions in any way in your years of experience? Any 
retaliation.
    Mr. Zinser. In this case, we haven't seen retaliation. We 
spoke to the folks who filed the complaints. They were 
appreciative of our actions, the Census Bureau's actions. They 
didn't indicate any type of retaliation.
    One thing that's happening with the census right now, we're 
starting to reduce staffing levels. So people are getting laid 
off, and that's going to, in our view, probably increase the 
number of complaints that come in; because people who aren't 
going be afraid of retaliation will blow the whistle.
    At the same time, we have our antennae up for allegations 
coming, in that people may claim to have been retaliated 
against to try to save their jobs.
    Chairman Towns. How many whistleblower complaints do you 
get nationally.
    Mr. Zinser. From the start, October 1, 2009, we've gotten 
between 650 and 700.
    Chairman Towns. How many followups, and what happened.
    Mr. Zinser. All of them have been paid attention to. We 
sent probably 400 or so to the Census Bureau for action. We are 
investigating or have investigated about 40 of those, and 
probably there are 100 to 150 that, after we have reviewed 
them, the information wasn't specific enough or the issues they 
were complaining about wasn't substantial enough to initiate a 
review. We did what we call ``zero file,'' keep them on file in 
case we get information in the future of the same nature.
    Chairman Towns. On that same line of questions, how many 
would you just send to the Census Bureau and how many send to 
the U.S. attorney.
    Mr. Zinser. The issue of sending to the U.S. attorney, I 
believe this is the first case we have actually referred in 
2010 to the U.S. Attorney's Office. There was a case in 2000 
that was referred to the U.S. attorney down in Florida.
    Chairman Towns. My time has expired. I yield to the 
gentleman from St. Louis, Mr. Clay, Chairman of the 
subcommittee.
    Mr. Clay. Thank you so much.
    Dr. Groves, do you think that the local census offices' 
deadlines are so strict that they increase the chances that 
other employees will take unacceptable shortcuts like this.
    Mr. Groves. That's a great question, and it's one I think 
about a lot. One of the things that managers face mobilizing 
about 600,000 enumerators is, who are temporary employees, is 
to balance the desire to finish the work expeditiously and 
thoroughly, and then to avoid cutting corners.
    This is a tough management job with temporary employees, 
because many of them, when they finish the job, they lose that 
source of income. And it requires great wisdom to balance 
between deadlines and cutting corners appropriately.
    One technique some offices use, and was used here I know, 
is that at a certain point in the completion of the work, to 
gather the work back up into the central office to redistribute 
it to be done effectively by a smaller work force.
    I have looked for rushing, evidence of rushing. I can't 
find it systematically. We're worried about it, we talk about 
it a lot in the central office to make sure we're not rushing. 
And I haven't found the evidence that we are pushing people so 
hard that they are cutting corners.
    Mr. Clay. So you have not seen, Mr. Farthing, any evidence 
of pressure to meet deadlines? Cases like this to occur.
    Mr. Farthing. Keeping in mind that, as Dr. Groves said, the 
number of people we have to hire, the infrastructure and 
various layers, our managers are responsible for, again, making 
sure that everyone that we give work to is working effectively 
with what we call good time management.
    For some, they may feel rushed. Some folks maybe aren't as 
well in time management. We have to take action if that's the 
case. And then we have others who seem to work fine within the 
timeframe we allow everybody to get the work done.
    As Dr. Groves said, the process of bringing the work in and 
back in after a certain period of time, everybody we feel has a 
comfortable cushion to get their initial assignment done. We 
have to bring work back in at some point to make sure that 
those still out there working are making effective use of the 
time by going out to visit households at an appropriate time.
    I think it's well known that our community, especially in 
Brooklyn, everybody's not out of the home from 9 a.m. to 5 p.m. 
We have a lot of folks who don't come home until 8 or 9 p.m., 
who are working more than one job. So we have to make sure that 
the employees that we have get out of that mindset, that they 
are actually going out to get very difficult cases at a time 
that we think people will be at home.
    Mr. Clay. I want to ask about Brooklyn in particular. Is it 
difficult to get into these large apartment complexes, with the 
doors locked and getting access to these high rises.
    Mr. Farthing. I would tell you that Brooklyn and Manhattan, 
closely followed by Queens, are the toughest places to do the 
census in the country. They always are difficult.
    Congresswoman Clarke, your office has helped me. For 
example, we have buildings, some are wealthy buildings, where 
the management will not allow us in for the census. By law, 
they're supposed to let us in. Congresswoman, I don't know what 
you did, but we got in there; a phone call or what.
    Mr. Clay. She's awfully persuasive.
    Mr. Farthing. I appreciate it. We have other issues where 
Congressman Towns knows, in Bedford-Stuyvesant, we have the 
famous apartments above the store. And there's no doorbell, 
there's nothing. The only way is to stand outside and wait 
until somebody might come home, or maybe the store owner below 
comes home; a very, very difficult place to conduct a census.
    Aside from that, Congresswoman, I appreciate what you said. 
The reality we to have to face in Brooklyn, especially 
immigrants and those that are undocumented, pose a lot of 
problems for us.
    Mr. Clay. Thank you.
    Mr. Zinser, last question. These managers used an online 
information resource called ``Fast Data'' to complete 
questionnaires instead of conducting personal interviews. Can 
you describe how to use this data, this FastData online? You or 
Dr. Groves?
    Mr. Zinser. Yes, sir. Basically, what we looked at was its 
use in the local census offices. And there is a division in the 
office between those who are actually overseeing the operations 
and actually going out and knocking on doors.
    For those doing quality assurance with FastData access, or 
having access to the FastData, it was supposed to have been 
limited to the quality assurance staffer; so that the quality 
assurance staffer, they go through the work done on the other 
side of the house, and have some information to match that 
against locally.
    What happened in this case is that the area manager of 
field operations switched from the quality assurance side of 
the house, where they had access to FastData, over to the 
operations side; and they maintained or kept their password to 
data and used it for this purpose.
    Mr. Clay. Thank you.
    Dr. Groves.
    Mr. Groves. Let me just add one note. You might ask, why 
use it at all? And there's a very narrow use prescribed. On 
these cases that are designated to be reinterviewed for quality 
control purposes, we've found it efficient to sometimes do 
those by telephone. We save the taxpayers a lot of money.
    So the only prescribed use of this data is that--let's say 
there's a house to reinterview on 123 Main Street, Apartment 1; 
I would type that into FastData. If there's a phone number 
there for that address, then we conduct the reinterview by 
telephone, saving everybody some money.
    That's the only use it's prescribed for under the training 
guidelines. This office and these managers violated that.
    Chairman Towns. I recognize the gentlewoman from Brooklyn.
    Ms. Clarke. Thank you, Mr. Chairman.
    One problem was a question raised by Congressman Clay. My 
question is, what other information can be found on the system, 
on the FastData system, other than addresses and telephone 
numbers?
    Mr. Groves. This is a data base that resembles a lot of 
commercially assembled data bases this year. It has a list of 
names of people, and then an estimated set of years that they 
may have lived at that address. For some of the people, there's 
a phone number attached to it.
    In my prior life before being a Census Bureau Director, I 
examined these types of data bases. They are filled with 
erroneous data and sometimes helpful data. It isn't clear how 
the year--these data are obtained from a lot of different 
sources, driver's licenses all sorts of things.
    Ms. Clarke. Are you saying that you can get someone's 
driver's license number.
    Mr. Groves. No, you can't. All you can get is a sense of 
names attached to this address from some record system; and 
that's all that was there. About every 10th person you have a 
date of birth on the person's record. It's filled with a lot of 
missing data, too.
    Ms. Clarke. No Social Security number.
    Mr. Groves. No Social Security numbers.
    Ms. Clarke. Dr. Groves, my followup question is: What is 
the procedure when employees who work in quality assurance are 
promoted or transferred out of the division? Are passwords 
supposed to be changed and access restricted? And how was it 
that the former AMQA in question was able to retain her access 
privileges?
    Mr. Groves. I think Tony should best answer that.
    Mr. Farthing. There's two things: Why have you taken the 
action taken? We felt it's a very serious matter. Whenever 
anyone accesses FastData on our computers, or is given access 
in the first place, we actually have the rules and regulations 
and also the penalties behind it. It clearly instructs them 
they're not to use it for any other purposes but for quality 
assurance and administrative action to be taken. If they 
violate that, which was the case was here. The error on our 
part was that we did not--when this person was moved over, she 
continued to have her password, and her password rights were 
not taken away.
    Ms. Clarke. Is that typically what happens, though. Is 
there an expiration on an individual's password? They're no 
longer in that division, transferred, promoted moved to another 
division of the census? Is there an expiration on the password? 
What happens?
    Mr. Farthing. Based on our findings, Congresswoman, 
nationally, all of our offices get a very thorough review of 
who has access, who should have access, who should not have 
access. And so we have lots of people now who no longer have 
access to this, based on the findings of what happened, taking 
corrective action.
    Mr. Groves. It's clear that going forward we can tighten 
this. We tightened it now. In retrospect, we have to clamp 
down.
    Mr. Zinser. Congressman, I haven't done that at the 
Commerce Department, though we did it at a former department 
where I worked. The idea of people--whether they're employees 
or contractors or temporary employees--having access to 
computer systems through their passwords, after they leave 
employment is a big issue, and one that we probably need to 
look at governmentwide, because people keep access when they 
shouldn't.
    Ms. Clarke. I hope that we will.
    My final question to you, Inspector General Zinser, in your 
testimony you mentioned the need to clarify the census 
definition of ``status,'' with regard to last resort cases.
    Has the Census Bureau taken any steps to clarify the 
ambiguity surrounding this for the 2010 census? And if so, has 
it been standardized in order to mitigate any further 
misunderstanding by enumerators across the country?
    Mr. Zinser. Congresswoman, I don't know the specific 
answer. I know that except for here in Brooklyn, the 
enumeration is virtually completed. I don't know if the re-
enumeration guidelines are really being used anywhere else, but 
I'll have to let Dr. Groves respond.
    Mr. Groves. As soon as we diagnose this--our regional 
directors have a conference call every day about 2 p.m., I 
think. The word went out quickly to redouble the instructions 
about how to handle these sorts of cases.
    We also did queries back about whether there were any other 
pockets that people knew about of these abuses; and then we're 
doing a computer search to find them. We are able--the good 
thing this is, we're able to diagnose and identify these cases. 
Given our data files, that's what we're doing very actively. I 
don't have the results yet, but we're on it.
    Ms. Clarke. Thank you very much.
    I yield back the balance of my time.
    Chairman Towns. Thank you very much, Congresswoman Clarke.
    Let me ask the question: You indicated that Brooklyn was 
one of the hardest areas to count. Is there any extra 
compensation or additional workers be put in an area like that? 
I'm just wondering if there's pressure to make them do the 
funny things they've done over the years in this particular 
region?
    Mr. Groves. Tony can comment on the salary and the 
operations and how the operations are designed. That might be 
the best way to address your question.
    Mr. Farthing. In Brooklyn, actually all of New York City, 
we pay among the highest pay rates for the census in the 
country. And that's for not only our census takers, but also 
for the managers that we hire in all of our offices.
    It does take on my part and my staff, we really do have to 
go out and do very heavy recruiting, specialized recruiting to 
find the right type of individuals. I've been to all of your 
offices to ask help for us. Congresswoman Clarke, you answered 
our call. We came to find out good people to take this job and 
describe what the job was, and just how difficult it was going 
to be. We do pay, I think, well. But it's just a very tough 
place to conduct the census.
    Chairman Towns. Now that we have this problem, will they 
need extra time to do the count, or can we still meet the 
schedule in the end of July?
    Mr. Groves. I am quite confident that the scheduling for 
the next operations and the ability to react to anything we 
haven't found for redo work is sufficient to do a great job 
over the coming weeks.
    Chairman Towns. The way it is structured, you think this 
creates a problem for you? For instance, if a person knows that 
``Once I finish this count I'm unemployed.'' That sort of, 
``I'm working myself out of a job.''
    It reminds me of what the lady at the airport the other day 
said to me when I asked questions about bags being checked. She 
said, ``Why would I help you? If you learn how to do this, then 
I'll lose my job.''
    So the point is, I'm thinking in terms of, if they finish 
counting, then they're unemployed. That's not an incentive to 
finish.
    Mr. Groves. That's correct. I've tried to express the same 
managerial challenge in the earlier question. This, Mr. 
Chairman, is endemic to how surveys and censuses work. We often 
rely on temporary staff. Our management procedures have built 
in ways of addressing that as best we can, but we cannot deny 
the emotional reaction of one of our workers, knowing that upon 
completion they will lose a source of income.
    We try to address that by gathering up work and 
redistributing and so on; but the fact of the matter cannot be 
denied. That is a tension in managing these operations.
    Chairman Towns. Dr. Groves, I must admit I have great 
admiration and respect for you. This is a tough job. This is 
not an easy job. When you see how it's structured and what you 
called upon a person to do within a certain timeframe--you too, 
Mr. Farthing--the fact that you have one of the toughest areas 
in the country to count.
    And of course, I want to let you know that I recognize it's 
not easy. That's the reason why we want to have this hearing, 
to try to do whatever we can to help you.
    I yield again to the committee chair, the gentleman from 
St. Louis, MO, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. Again, I want to say how 
honored I am to come to a hearing here in Brooklyn and to 
engage with my colleagues, Congresswoman Clarke, as well, and 
Congressman Towns and Congressman Rangel in this hearing.
    You know, it seems as though we struggle so every 10 years 
with the census. People in the audience indicate that they are 
not as pleased as they could be with the results of the census. 
But from my perch, I'm confident that this will be one of the 
most accurate censuses that we conduct in the history of this 
country, because of the leadership.
    Let me ask Dr. Groves or Mr. Farthing, How has the re-
enumeration of these 10,000 forms gone? Is it pretty much 
complete, or----
    Mr. Farthing. As of the end of the weekend, we're about 80 
percent complete on that work. Just to kind of reassure you of 
what we have done; we've broadened the team from my office and 
offices nearby, some of our best workers to oversee this and 
make sure it's done right.
    If we see irregularities, again, as Dr. Groves said, in our 
processes, checking and reviewing work, then we basically take 
care of the problem and go back out to make sure it's done 
properly. But I would say it's such a small amount of work 
we're working on compared to what we had initially when we 
started out on this; so it's just a matter of getting the right 
people who are very experienced to get out there and get the 
job done.
    Mr. Clay. In a related question or concern: How are the 
clerks that were instructed or ordered by the manager or 
assistant manager to taint this data, how are they doing? Are 
they pretty much readjusted or still in place.
    Mr. Farthing. Yes. There's no retaliation. I think as Dr. 
Groves said, we're very grateful to them for speaking up. As 
Dr. Groves said, if they didn't speak up, we would have had to 
detect this work much later in the process. But they spoke up 
quickly, and that enabled us to take care of problem right when 
the work was in the office and we could really address it right 
then and there. So we are very happy with those individuals and 
there was no retaliation by any means.
    Mr. Clay. As Chairman Towns mentioned at the beginning of 
the hearing, Brooklyn has had a history of difficulties when it 
comes to the census. We know it only occurs every 10 years. I 
was not aware that there was an office that was burned 20 years 
ago.
    Apparently, it must be somewhat unique for Brooklyn, and I 
guess you have to prepare for that at the beginning of each 
census. And I assume you were ready for instances likes this or 
something similar?
    Mr. Farthing. Our motto in my office is ``Prepare for the 
unexpected,'' and Brooklyn seems to always put us in that 
position. I'm happy that in 2000 we had a very good census in 
Brooklyn. We didn't have a lot of issues or anything come up 
like we've had right now and the 1980 census, for example.
    But as I said earlier, it's a very difficult job and you're 
dealing with all walks of life; and you have to be prepared for 
a very diverse community here in Brooklyn. You have to actually 
have great knowledge behind the neighborhoods, your hirees 
you're bringing into the office. And you have to have a lot of 
cultural sensitivity. It's a very tough job to blend the 
elements together and deploy workers and make sure that 
everybody is doing what they are asked to do, and so the 
challenges are great. To be up for the task, my job is to find 
people who can actually go out and help manage in the effort.
    Mr. Clay. Thank you, Mr. Farthing for your response and Dr. 
Groves and their responses. I yield back.
    Chairman Towns. Thank you.
    I yield to the Brooklyn Congresswoman.
    Any additional questions?
    Ms. Clarke. Just a final statement, Mr. Chairman.
    Mr. Farthing, I think I concur with the chairman when he 
talks about just incremental changes in the response rate here 
in Brooklyn. I understand why you would find it to be a great 
thing.
    On the other hand, those of us who live in Brooklyn and who 
rely on the resource that is important to bear as a result of 
enumerating the population, it still remains disappointing.
    My question to you is, how does Brooklyn rate in its 
response rate to other similar environments across the Nation? 
Other urban, heavily populated areas?
    Mr. Farthing. The Borough of Queens had a 56 percent 
response rate in 2000; and they went up 3 percentage points to 
59 percent. Queens has much more difficulty now with the 
increase of the immigrant population.
    The Bronx is about 57 percent. It went up in 2000 up to 62 
percent. Manhattan, typically, is a little bit higher. They 
were 62 percent in 2000 and went up to 67 percent. Staten 
Island was 64 percent in 2000, 64 percent again.
    Staten Island has become more difficult now, as folks from 
Brooklyn moved over to the North Shore. It's unfortunate for 
the census that you have to understand what happens over 10 
years to your communities.
    And for Brooklyn, what you don't get like in other 
communities where you have folks born in this country and they 
understand the census and there's a lot of civic pride--I'd 
probably yield to the Congressman from Missouri. I'd love to 
have the same characteristics, it would be easy to do a census.
    But the city of New York is the greatest challenge of all 
to do the census. I am pleased when I see that there are 
increases in response rates. What's disturbing is when I see 
response rates go down. That's most alarming.
    Ms. Clarke. Dr. Groves, is it at all possible to provide us 
information about how we rate with other urban environments 
around the Nation? I would be very interested in finding that 
out; simply, because I think you put your finger on the pulse 
of it, Mr. Farthing.
    We need a strategy to deal with immigrant populations, a 
very examined strategy for the 2020 census. New York City is 
the gateway for immigrants; an it has been since the beginning 
of time. I think it will be for many generations to come. And I 
don't think it is acceptable for us not to look at this, 
knowing it's indicative of this particular area and not come up 
with a very specific remedy and strategy to address it.
    It may need an awareness campaign that begins even before--
before we get to the point of even discussing the next census. 
But I think that our city suffers because we don't get as 
accurate a count as we need to. And by extension, our State 
suffers, because the heaviest population of individuals in the 
State of New York reside in the city of New York.
    I just wanted to put that on your radar. I'd love to get 
that information. I think you've got a lot of work to do going 
forward. I am pleased to see that there has been an increase. 
My district in 2000 had an abysmal 33 percent response rate. I 
applaud my colleagues at the State and local level who stayed 
the course, and we worked together to make sure that we raised 
the numbers. But I'm not satisfied yet.
    And so Mr. Chairman, and Mr. Subcommittee Chairman, I want 
to thank you for holding this hearing right here in Brooklyn so 
we can put a lot of our concerns to rest; but also looking for 
what we need to do going forward, strengthen our ability here 
in Brooklyn.
    Thank you.
    Chairman Towns. Thank you very much, Congresswoman Yvette 
Clarke.
    I'm delighted to see we have with us District Leader Brown, 
who's working very hard to help get information out to 
communities. And State Senator Velmanette Montgomery, who 
worked very hard with us in terms of getting the message out to 
people about how important it is to be counted.
    Let me say in closing to Dr. Groves and Mr. Farthing in 
particular: Please do not rush through and go to the FastData. 
Let's try to make certain that we get extra people in here to 
continue this count. We want to make this as accurate as 
possible. This is something we won't see again for another 10 
years. And, of course, that's a lot of suffering of people if 
we don't get an accurate count.
    So whatever is necessary to get out a response rate and to 
be able to get an accurate count, if it requires elected 
officials going door to door and knocking on doors to help you 
get in, we are prepared to make that kind of commitment to you, 
that's how important it is.
    Because there are so many things riding on this accurate 
count; in terms of money for housing, money for food stamps, 
money for education. All of these things are riding on this 
count. So this is something that we do not take lightly.
    This is very, very important to us, and I want you to know 
the commitment across the board with elected officials 
discussing it over and over again, that is the reason why we 
want to have this hearing here, to let you know we stand ready 
to work with you, to do whatever is necessary to be able to get 
it right.
    I know that we're running out of time. The point is that 
instead of running out of time, it's about running out to see 
how many people we can get to come in from wherever to be able 
to make this an accurate count.
    Thank you so much for your work, and I realize it's not 
easy. The point is it's just so important.
    And Dr. Groves, I want to thank you and I know you've been 
out of the office on several occasions. I want you to know you 
might have to come back again.
    Thank you for being here, Mr. Zinser, and I want to thank 
you for all of the work you have done.
    And I want to thank my colleagues, Representative Clay, who 
came all the way from Missouri to be here, to be able to take 
it back to the committee he chairs, to be able to help us and 
be able to do whatever is necessary to get an accurate count.
    And my colleague who comes from the same district that I 
have, who recognizes how important it is to be able to get an 
accurate count. So I want to thank Congresswoman Yvette Clarke 
for her work and, of course, effort.
    And I want to thank Congressman B. Rangel, who came across 
the bridge to be over here today. [Laughter.]
    It's a long trip from Harlem to Brooklyn. Also, to try to 
point out how important it is to get an accurate count. Thank 
you so much for your participation. We look forward to working 
with you to make certain that we get it right.
    Thank you, Mr. Farthing, Mr. Zinser, Dr. Groves.
    At this time the committee stands adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
